     Department of Homeland Security

     ��������������������������


Palm Beach County, Florida, Appropriately Expended
   $4.8 Million of FEMA Public Assistance Funds
 Awarded for Beach Renourishment Activities Under
                 Tropical Storm Fay




DA-13-21                                  July 2013

                                        OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security
                                             Washington, DC 20528 I www.oig.dhs.gov


                                                  JUL       9 2013

MEMORANDUM FOR:                         Major P. (Phil) May




FROM:

                                       Office of Emergency Management Oversight

SUBJECT:                               Palm Beach County, Florida, Appropriately Expended $4.8 Million
                                       of FEMA Public Assistance Funds Awarded for Beach
                                       Renourishment Activities Under Tropical Storm Fay
                                       FEMA Disaster Number 1785-DR-FL
                                       Audit Report Number DA-13-21

We audited Public Assistance funds awarded to Palm Beach County, Florida (County) (FIPS Code
099-99099-00). Our audit objective was to determine whether the County accounted for and
expended Federal Emergency Management Agency (FEMA) funds according to Federal
regulations and FEMA guidelines.

The County received a Public Assistance grant award totaling $5.1 million from the Florida
Division of Emergency Management (State), a FEMA grantee, for damages resulting from
Tropical Storm Fay, which occurred in August 2008. The award provided 75 percent FEMA
funding for debris removal, emergency protective measures, and permanent repairs to
buildings, roads, and recreational facilities. The award consisted of 4 large projects and 13
                1
small projects.

We audited 3 large projects with awards totaling $4.8 million (see Exhibit, Schedule of Projects
Audited) for beach renourishment activities. The audit covered the period August 18, 2008, to
March 7, 2013, during which the County claimed $4.6 million under the projects reviewed. At
the time of our audit, the County had completed work on all projects included in our review
and had submitted a final claim to the State for project expenditures.

We conducted this performance audit between July 2012 and April 2013 pursuant to the
Inspector General Act of 1978, as amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain


1
    Federal regulations in effect at the time of the disaster set the large project threshold at $60,900.
                        OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. To conduct this audit we
applied the statutes, regulations, and FEMA policies and guidelines in effect at the time of the
disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed County,
State, and FEMA personnel; reviewed the County’s procurement policies and procedures;
reviewed applicable Federal regulations and FEMA guidelines; and performed other procedures
considered necessary to accomplish our audit objective. We did not assess the adequacy of the
County’s internal controls applicable to its grant activities because it was not necessary to
accomplish our audit objective. However, we gained an understanding of the County’s method
of accounting for disaster-related costs and its policies and procedures for administering
activities provided for under the FEMA award.


                                      RESULTS OF AUDIT

The County generally expended Public Assistance grant funds according to Federal regulations
and FEMA guidelines for the three projects included in our review. However, it did not account
for the project expenditures on a project-by-project basis as required. According to 44 Code of
Federal Regulations (CFR) 13.20(a)(2), fiscal control and accounting procedures of a State and
its subgrantees must be sufficient to permit the tracing of funds to a level of expenditures
adequate to establish that such funds have not been used in violation of the restrictions and
prohibitions of applicable statutes. Further, 44 CFR 206.205(b) requires that large project
expenditures be accounted for on a project-by-project basis.

The County initially set up FEMA disaster-account codes to capture disaster costs. However, it
recorded very little expenditure in the accounts. Instead, the County commingled nearly all
disaster-related receipt and expenditure transactions with nondisaster transactions in its
general accounts, with no separate accounting establishing project balances, receipts, or
expenditures. As a result, we could not readily identify and trace total costs claimed under
individual projects to supporting documentation without direct assistance from County
department personnel.

County officials disagreed that project expenditures were not recorded separately in the
County’s accounting system. However, the evidence supports our finding.




www.oig.dhs.gov                                                                         DA-13-21
                                               2

                        OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                                     RECOMMENDATION 


We recommend that the Regional Administrator, FEMA Region IV:


Recommendation #1: Instruct the State to reemphasize to the County its need to account for
FEMA project expenditures on a project-by-project basis as required by Federal regulations (44
CFR 206.205(b) and 44 CFR 13.20(a)(2)).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with County, State, and FEMA officials during our audit.
We also provided a draft report in advance to these officials and discussed it at the exit
conference held on April 29, 2013. County officials’ comments, where appropriate, are
incorporated into the body of this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until we receive and evaluate your response, we will consider the
recommendation as open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Major contributors to this report are David Kimble, Eastern Region Audit Director;
Adrianne Bryant, Audit Manager; Helen White, Auditor-in-Charge; Vilmarie Serrano, Senior
Auditor; and Jerry Aubin, Program Analyst.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                                                                         DA-13-21
                                               3

                              OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security

                                                                                            Exhibit

                                         Schedule of Projects Audited

                                                     FEMA
Project                                            Category of    Amount      Amount
Number                Project Scope                   Work       Awarded2     Claimed
               Beach Renourishment –
     1080      Juno Beach                               G        $2,960,556   $2,958,466
               Beach Renourishment –
     1515      South Palm/Lantana Beach                 G         1,209,106    1,206,504
               Beach Renourishment –
    1533       Singer Island Beach                      G           679,928      426,263
    Total                                                        $4,849,590   $4,591,233




2
    The amount awarded includes direct administrative costs.



www.oig.dhs.gov                                                                            DA-13-21
                                                         4
                       OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

                                                                        Appendix


                                    Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief of Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Office
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (G-12-041-EMO-FEMA)

State
State Auditor, Florida
Executive Director, Florida Division of Emergency Management

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Sub grantee
Audit Liaison, Palm Beach County

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure




www.oig.dhs.gov                                                               DA-13-21
                                             5

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
